             September 10, 2002

             MEMORANDUM

             FOR:             M/AS, Roberto J. Miranda

             FROM:            IG/A/ITSA, Melinda G. Dempsey /s/

             SUBJECT:         Risk Assessment of Major Functions Within the
                              Consolidation, Property and Services Division of the Office
                              of Administrative Services, Bureau for Management
                              (Report No. A-000-02-002-S)

             This memorandum is our report on the subject risk assessment. Although
             this is not an audit report, this report contains a suggestion for your
             consideration. We have reviewed your comments, and they are included as
             Appendix II. I appreciate the cooperation and courtesy extended to my staff
             during the risk assessment.


Background   The Office of Administrative Services, Bureau for Management, (M/AS)
             provides logistical support services and administrative services worldwide
             and is responsible for functions costing approximately $40 million annually.
             It is comprised of the Office of the Director1 and four divisions:

             •   Consolidation, Property and Services Division,
             •   Information and Records Division,2
             •   Overseas Management Support Division,3 and
             •   Travel and Transportation Division.4

             During the past decade, the Office of Inspector General has performed few
             audits of the Office of Administrative Services’ functions. In addition, the

             1
               See risk assessment Report No. A-000-02-001-S.
             2
               See risk assessment Report No. A-000-02-003-S.
             3
               See risk assessment Report No. A-000-02-004-S.
             4
               See risk assessment Report No. A-000-02-005-S.

                                                                                    Page 1 of 10
Office of Administrative Services has received limited external reviews and
evaluations from other sources. Given the lack of external independent
reviews, including audits, we performed risk assessments of the major
functions of the Consolidation, Property and Services Division of the Office
of Administrative Services.

The General Accounting Office’s “Standards for Internal Control in the
Federal Government” (November 1999) note that internal controls should
provide reasonable assurance that agency objectives are being achieved,
operations are effective and efficient, and assets are safeguarded against loss.
Internal controls consist of the following five interrelated components.
These components are the minimum level for internal control and provide
the basis against which internal control is to be evaluated.

1. Management and employees should establish and maintain a control
   environment throughout the agency that sets a positive and supportive
   attitude toward internal control and conscientious management.
2. Internal control should provide for a risk assessment of the risks the
   agency faces from both external and internal sources.
3. Internal control activities should be effective and efficient in
   accomplishing the agency’s control objectives and help ensure that
   management’s directives are carried out.
4. Information should be recorded and communicated to management and
   others within the agency who need it and in a form and within a time
   frame that enables them to carry out their internal control and other
   responsibilities.
5. Internal control monitoring should assess the quality of performance over
   time and ensure that the findings of audits and other reviews are
   promptly resolved.

This review focused on the second component—risk assessment. The GAO
Standards note that the specific risk analysis methodology used can vary
because of differences in agencies’ missions and the difficulty in
qualitatively and quantitatively assigning risk levels. This review assigned a
risk exposure of high, moderate, or low for each major function. A higher
risk exposure simply indicates that the particular function is more vulnerable
to its program objectives not being achieved or irregularities occurring.
Appendix I describes in detail our risk assessment scope and methodology.




                                                                         Page 2 of 10
Discussion   The Consolidation, Property and Services Division of the Office of
             Administrative Services, Bureau for Management, (M/AS) is responsible
             for the following seven major functions.5 Our assessments of the risk
             exposure for each of these major functions are described below.

                             Function Description                                Risk Exposure
                 Facilities operations and maintenance in the
                 Ronald Reagan Building and warehouses                       Low
                                         Risk Assessment Factors
                 • The General Services Administration (GSA) provides services under
                    the building occupancy rental agreement with USAID. These costs
                    are not separately identified under the occupancy agreement. Two
                    USAID staff members are responsible for the management of the
                    facilities operations and maintenance function.
                 • Contracts, other than the building occupancy agreement, are
                    relatively small. For example, the icebox maintenance contract is
                    $1,700 and taken from the GSA approved schedule.
                 • The USAID staff members both have extensive experience—22
                    years and 9 years.
                 • The process for notifying GSA of a service request is manual. GSA
                    provides weekly reports of service requests and their status. USAID
                    does not maintain its own summary log of service requests. No
                    on-line tracking mechanism is set up to allow USAID to log requests
                    and/or monitor status.
                 • The Automated Directives System (ADS) 519 was just issued to
                    update obsolete requirements.
                 • GSA conducts annual building inspections.




             5
               Our risk assessments only covered major functions. In addition to major functions described
             in this report, the Consolidation, Property and Services Division also is responsible for motor
             pool and coordination of art work.
                                                                                                 Page 3 of 10
           Function Description                       Risk Exposure
Mail management                                           Moderate
                        Risk Assessment Factors
• Sensitivity is high because the mailroom handles both classified and
   unclassified material.
• Mail service is entirely contracted out with one USAID staff person
   overseeing the $485,000 contract. Two additional contracts are used
   for domestic ($22,500) and international ($36,000) couriers.
• No recent reviews of mail management have been conducted.
• The current contract expires at the end of September 2002. The
   current contractor and its employees have been employed since
   1997. Potential changes in the contractor and employees could lead
   to additional training, adjustments, and unforeseen issues.
• The USAID staff person in charge of mail management oversees the
   mail contract. The staff person has attended contract administration
   training as well as training on computer programs and customer
   service.
• The ADS Directive is up-to-date, but job description is out of date.

            Function Description                       Risk Exposure
Management of equipment and furniture in
the Ronald Reagan Building and warehouses                    High
                       Risk Assessment Factors
• Two staff persons manage the acquisition, receiving, movement and
    disposal of equipment and furniture—chairs, tables, file cabinets, etc.
    The equipment and furniture does not include automated equipment
    such as computers, fax machines, printers, photocopiers, and
    telephones.
• The first wall-to-wall inventory was conducted during the summer of
    2001. Location and tracking numbers were given to 15,000 items.
    However, dollar values are not yet assigned to the individual items.
    Items were entered into the inventory via bar codes from a hand-held
    scanner. Items are added and deleted manually because the loading
    dock does not have scanners when an item is delivered or disposed.
    Due to this manual process, the inventory is not maintained real-time.
• Items are also stored at the USAID Capitol Heights warehouse, with
    8,800 square feet. Space is underutilized due to efforts to dispose of
    unneeded items. Items are included in the overall inventory noted
    above. However, no distinct inventory is maintained for the warehouse
    even though new office furniture is stored in the warehouse.
• Segregation of duties appears to be adequate.
• The ADS Directive (ADS 518) was just issued to update obsolete
    requirements.


                                                                  Page 4 of 10
           Function Description                        Risk Exposure
Metro transit subsidy program                               Low
                        Risk Assessment Factors
• The Office has approximately an annual $1 million contract with the
   Transportation Administrative Service Center (TASC) of the
   Department of Transportation to distribute Metrocheks within
   USAID.
• TASC distributes Metrocheks 3 days each month to about 1,000
   USAID employees.
• A USAID Inspector General audit of the Metrochek program in
   1999 revealed a breakdown of internal controls and led to the TASC
   contract.
• Approximately 50 percent of one staff person’s time is used to
   handle Metrochek issues with some help from an administrative
   assistant.
• The Metrochek staff person has proactively looked for ways to make
   the process more efficient such as the SmartBenefits option offered
   by the Washington Metropolitan Area Transit Authority.
• Applications for Metrocheks are screened for eligibility based on
   employment status and not concurrently receiving parking subsidies.
• TASC provides monthly reports with employee names and the
   amounts of their Metrocheks.
• The Metrochek staff person also keeps a database. However, it is on
   a hard drive that is not backed up on a regular basis. In addition, the
   database is overwritten with new data and thus can not be used for
   historical purposes.


           Function Description                        Risk Exposure
Photocopiers in the Ronald Reagan Building                  High
                       Risk Assessment Factors
• The USAID Inspector General has conducted an audit of the
   photocopier program. Fieldwork is complete and the final report is
   soon to be issued (Report No. A-000-02-004-P).
• The photocopier program uses three manufacturers to supply about
   125 photocopying machines.
• The audit findings show that USAID can save at least $400,000
   annually.
• The audit findings also show that inventory was not maintained and
   procedures were not documented resulting in a variety of
   inefficiencies including the underutilization of machines.



                                                                   Page 5 of 10
            Function Description                         Risk Exposure
Printing and graphic services in the Ronald
Reagan Building                                             Moderate
                         Risk Assessment Factors
• The USAID Inspector General recently issued on March 22, 2002 an
    audit report of the printing and graphics services in the Ronald
    Reagan Building. (Audit Report No. A-000-02-002-P)
• The audit findings show that monitoring and measuring systems
    were inadequate or non-existent and that basic internal controls were
    lacking.
• The Office of Administrative Services agreed with the report, is
    planning to implement the one report recommendation, and has
    already started corrective actions.


           Function Description                         Risk Exposure
Space management in the Ronald Reagan
Building                                                     Low
                        Risk Assessment Factors
• Function incorporates policy for managing space and the
   determination of space usage. An architect manages this function
   with a staff assistant. The architect has 12 years of experience in
   this function.
• Sensitivity is low.
• Outside contractors are occasionally used for planning and redesign
   projects.
• The ADS Directive (ADS 519) was just issued to update obsolete
   requirements.




                                                                  Page 6 of 10
Conclusion   Our risk assessments of the Consolidation, Property and Services Division of
             the Office of Administrative Services, Bureau for Management, (M/AS)
             covered seven functions and reached the following conclusions.

                                                                   Risk Exposure
                           Function Description                High    Moderate         Low
                 Facilities operations and maintenance
                 in the Ronald Reagan Building and                                     !
                 warehouses
                 Mail management
                                                                            !
                 Management of equipment and
                 furniture in the Ronald Reagan                 !
                 Building and warehouses
                 Metro transit subsidy program
                                                                                       !
                 Photocopiers in the Ronald Reagan
                 Building                                       !
                 Printing and graphics services in the
                 Ronald Reagan Building                                     !
                 Space management in the Ronald
                 Reagan Building                                                       !
             Based on these assessments, we suggest that the Office of Administrative
             Services focus its efforts to mitigate the higher risk associated with the
             functions of management of equipment and furniture and photocopier
             management. Because the Inspector General has issued (or will soon issue)
             audit reports with recommendations, we are not making any suggestions in
             regard to printing and graphic services and photocopier management. In
             regard to management of equipment and furniture, we suggest that the Office:

             •    prepare and maintain a periodically updated, distinct inventory for the
                  USAID Capitol Heights warehouse.

             Both the Consolidation, Property and Services Division and Office of
             Administrative Services management agreed with our risk assessments
             and our suggested course of action.




                                                                                   Page 7 of 10
                                                                                       Appendix I


Scope and     Scope
Methodology
              The Office of Inspector General, Information Technology and Special
              Audits Division, conducted a risk assessment of major functions within the
              Consolidation, Property and Services Division of the Office of
              Administrative Services, Bureau for Management (M/AS). This risk
              assessment was not an audit. The risk assessment covered operations
              principally for fiscal year 2001. The risk assessment fieldwork was
              conducted at USAID headquarters in Washington, D.C. from October 12,
              2001 to April 19, 2002.

              Our risk assessments of the Consolidation, Property and Services Division’s
              major functions have the following limitations in their application.

              •   First, we assessed risk at the major function level only, not at the
                  Division or Office level.
              •   Second, we assessed risk only. Our risk assessments were not sufficient
                  to make definitive determinations of the effectiveness of internal controls
                  for major functions. Consequently, we did not generally (a) assess the
                  adequacy of internal control design, (b) determine if controls were
                  properly implemented, and (c) determine if transactions were properly
                  documented. If we were able to make these types of determinations
                  within the scope of our work, we reported on them accordingly as part of
                  our risk exposure assessments.
              •   Third, higher risk exposure assessments are not definitive indicators that
                  program objectives were not being achieved or that irregularities were
                  occurring. A higher risk exposure simply indicates that the particular
                  function is more vulnerable to such events.
              •   Fourth, risk exposure assessments, in isolation, are not an indicator of
                  management capability due to the fact that risk assessments consider
                  both internal and external factors, some being outside the span of control
                  of management.
              •   Fifth, comparison of risk exposure assessments between organizational
                  units is of limited usefulness due to the fact that risk assessments
                  consider both internal and external factors, some being outside the span
                  of control of management.

              Methodology

              We interviewed officials as well as reviewed related documentation of major
              functions performed by the Consolidation, Property and Services Division.
              These documents covered background, organization, management, budget,
              relevant laws and regulations, staffing responsibilities, prior reviews,
              internal controls, and risks (i.e., vulnerabilities). Our review of the
                                                                                      Page 8 of 10
Consolidation, Property and Services Division’s documentation was limited
and judgmental in nature and conducted principally to confirm oral
attestations of management.

We identified the Consolidation, Property and Services Division’s major
functions using the input of the Division Director and based on the
significance and sensitivity of each major function. We determined risk
exposure for all major functions in each division, e.g., the likelihood of
significant abuse, illegal acts, and/or misuse of resources, failure to achieve
program objectives, and noncompliance with laws, regulations and
management policies. We assessed overall risk as high, moderate, or low. A
higher risk exposure simply indicates that the particular function is more
vulnerable to its program objectives not being achieved or that irregularities
were occurring. We considered the following key steps in assessing risk:

(a)    determined significance and sensitivity;
(b)    evaluated susceptibility of failure to attain program goals,
       noncompliance with laws and regulations, inaccurate reporting, or
       illegal or inappropriate use of assets or resources;
(c)    were alert to "red" flags such as a history of improper administration
       or material weaknesses identified in prior audits/internal control
       assessments, poorly defined and documented internal control
       procedures, or high rate of personnel turnover;
(d)    considered management support and the control environment;
(e)    considered competence and adequacy of number of personnel;
(f)    identified and understand relevant internal controls, and
(g)    determined what is already known about internal control effectiveness.

These risk assessments were not sufficient to make definitive determinations
of the effectiveness of internal controls for major functions. As part of the
review methodology, we did (a) identify, understand, and document (only as
necessary) relevant internal controls and (b) determine what was already
known about the effectiveness of internal controls. However, we did not
generally (a) assess the adequacy of internal control design, (b) determine if
controls were properly implemented, nor (c) determine if transactions were
properly documented. In some cases, we were able to make these assessments
and reported on them accordingly as part our risk exposure assessments.




                                                                     Page 9 of 10
                                                                   Appendix II

Management
Comments



                                                   July 22, 2002


             MEMORANDUM

             TO:          Melinda Dempsey, IG/A/ITSA

             FROM:        Roberto J. Miranda, M/AS/OD

             SUBJECT:   Risk Assessment of Major Functions Within the
                        Consolidation, Property and Services Division of
                        the Office of Administrative Services
                        (Report No. A-000-02-xxx-S)

                  M/AS/CPD worked closely with the Inspector General's
             office on this survey believing that this assessment of
             vulnerabilities was an opportune first step on the way to
             the business transformation urged by the Assistant
             Administrator for the Management Bureau. We concur in the
             assessment of risk and recommendations.

                  We are undertaking efforts to prepare an updated,
             distinct inventory for the USAID Capitol Heights
             warehouse. It is expected that this endeavor will take
             approximately four months and will include separating the
             warehouse inventory from the inventory database, analyzing
             it and verifying it by conducting a physical inventory.

                  In addition to the above recommendation, the report
             identifies other areas and makes useful suggestions which
             will be incorporated as well.

                  In closing, M/AS/CPD appreciates the professional
             assistance, courtesy and help of the IG staff,
             particularly as we work to implement your
             recommendations.




                                                                   Page 10 of 10
